No. 19-1189
IN THE

Supreme Court of the United States
BP P.L.C., ET AL.,

Petitioners,

v.
MAYOR AND CITY COUNCIL OF BALTIMORE,
Respondent.
On Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5, that I have, this 23rd day of November,
2020, served three copies of Brief for the American Petroleum Institute as Amicus
Curiae Supporting Reversal upon each party separately represented in this
proceeding by causing them to be deposited with the United States Postal Service,
with first-class postage prepaid, addressed to counsel of record at the address listed
below:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton & Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
kshanmugam@paulweiss.com
Counsel of Record for Petitioners

Victor M. Sher
Sher Edling LLP
100 Montgomery St., Suite 1410
San Francisco, CA 94104
vic@sheredling.com
Counsel of Record for Respondent
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

____________________________
Andrew Kim
Goodwin Procter LLP
1900 N Street, N.W.
Washington, D.C. 20036
andrewkim@goodwinlaw.com
(202) 346-4000
November 23, 2020

Counsel for Amicus Curiae

